         INSPEGrOR GENERAL




                                                                             IG-U-007 .




           UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, D.C. 20436



March 20, 1997

MEMORANDUM

TO:           Director, Office of Administration

FROM:         Inspector   Generay~'L-41!~¥
SUBJECT:      Inspection Report 02-97, Comparison of Paid Overtime to Base Salary

We began this inspection on February 13, 1997. Our objective was to compare the 1996
paid overtime and base salary of Commission employees to determine if any employee
received such an amount that it warrants management attention. Thirty-eight employees
were paid a total of $29,617.63 for overtime in Fiscal Year (FY) 1996. None of these
received more than 10.22% of their total salary in paid overtime, which we did not
consider significant.

In conducting this inspection, we interviewed staff in the Office of Finance and Budget
(OFB) to identify recent reviews, requests, or studies made concerning overtime and
relevant intormation available on the bi-weekly payroll register. We reviewed the payroll
register for pay period 26, ending December 7, 1996, to identify every Commission
employee who was paid overtime. For those employees, we excerpted and analyzed
information regarding paid overtime, compensatory time, total salary, grade and step, and
office. We reviewed USITC Directive 4304.2, Overtime and Compensatory Time, March
25, 1994, for relevant criteria.

We found that thirty-eight employees in seven offices were paid overtime in FY 1996 that,
in total, ranged from . 19 % to 10.22 % of their salaries. (See Attachments 1 and 2 for
details). Only one employee earned over 10%; five employees earned between 5 and 10%;
and thirty-two earned under 5 % of their salaries. The largest mean percentage of paid
overtime to salary by office was 4.23°16, which was not signficantly different than the
overall total mean of 2.62%.

We evaluated compliance with requirements for paid overtime to exempt employees under
the Fair Labor Standards Act. Employees classified at or below the GS-4 level are
nonexempt and must be paid overtime rather than given compensatory time; nonexempt
employees classified at the GS-05 through GS-10 levels must be paid overtime unless they
request compensatory time. None of the thirty-eight employees who were paid overtime
were classified at or below a GS-4 level. Nineteen nonexempt employees at the GS-5 to
10 level received only paid overtime. One nonexempt employee, who was a GS-5, earned
twelve hours of compensatory time at her request.

Federal law prohibits employees from receiving more than a GS-1 5 level of pay including
paid overtime and compensatory time. The employees receiving only paid overtime were
all classified at a GS-13 level and below, and the total pay with paid overtime was
significantly below the GS-15 level of pay.

Ten employees paid overtime also earned a total of 115.50 hours of compensatory time in
FY1996. Nine of these employees were classified at a GS-12 level and below and earned a
maximum of 12 hours of compensatory time, with the total pay significantly below the GS-
15 level of pay. One GS-12 employee was paid $1, 164.96 in overtime and earned 113.75
hours of compensatory time; even though this was significantly more than the other
employees, the total pay did not approach the GS-15 level.

Four employees were erroneously paid a total of approximately $2,500 in pay period 2 of
·1997 for 103.25 hours of excess compensatory time. According to USITC Directive
4304.2, employees may only carryover 50 hours of compensatory time earned before the
last three pay periods into the next leave year, and excess hours will be compensatory time
lost. According to the Chief of the Finance Division, the new payroll system automatically
paid the excess hours of compensatory time instead of simply deleting the hours. The
Chief said that corrections to the system and to the employees' pay were in process.

One employee had a negative balance of 15.5 compensatory hours. This was a
typographical error by the Department of Interior which will be corrected.

Staff in the Office of Administration reviewed a draft of this inspection report and had no
comments.

The above procedures constitute an inspection made in accordance with the President's
Council on Integrity and Efficiency's Standards for Inspections.

If you have any questions, please contact me on 205-2210.

Attachments

CC:    Commission
       Director, OFB




                                             2
                                                                              Attachment 1

                            Paid Overtime as a Percentage of Salary




8   ..




7




2




O~~.......a...:..-~.;,.,;.,,;...J.""":'-"':""-':';';L....;..;.;,;,~;..;.;.L;.;.;.;~~~~~~~~~~~~~~~~

    o              2        3       4        5       6        7        8       9        10      11
                                   Percentage of Salary
                                                                                      _.Percentages
                                                                            Attachment 2


                               Schedules of Employees Paid Overtime

                                  Employees Paid Overtimeby Office

                                             Employees                         Total
        Office                              Paid Overtime                    Employees·
Management Services                               10                             23

General Counsel                                   7                              37

Secretary                                         7                              14

Economics                                         6                              39

Industries                                        4                              108

Administrative Law Judges                         3                               7

Unfair Import Investigations                      1                              12

* Weekly Resource Report dated December 7, 1996

                                Employees Paid Overtime by Classification

                                                                             Employees
 Series/GradeLevel                                Title                     Paid Overtime
0318.07-8                      Secretary                                         8
0303.07-08                      Legal Documents Cleric/Assistant and Lead        5
09S0.09-12                     .Paralegal Specialistand Supervisor               5
0303.0S-7                       Clerk                                            3
0303.08                         Support Services Specialist                      2
0303.09                         Staff Assistant                                  2
1102. 09-12                     Contract Specialist                              2
4417.08.                        Offset Duplicating Press Supervisor              2
0301.07                         Trade Infonnaiion Specialist                     I
0301.09                         Staff Assistant                                  1
0301. 13                        Publishing Systems Manager                       1
0342.07                         Support Systems Specialist                       I
090S. 12                       ~mey-Advisor                                      I
0986.07                        Legal Technician                                  1
1001. 11                       Visual Design Specialist                          1
1084. 12                       Visual Information Specialist                     1
1101.09                        International Trade Analyst                       1
